<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                       WEDNESDAY, APRIL 13, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:38 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Shelby, Murkowski, Blunt, 
Daines, Moran, Durbin, Reed, Tester, Udall, and Schatz.

                         DEPARTMENT OF DEFENSE

                         Missile Defense Agency

STATEMENT OF VICE ADMIRAL JAMES D. SYRING, DIRECTOR, 
            UNITED STATES NAVY


               opening statement of senator thad cochran


    Senator Cochran. The subcommittee will please come to 
order. Today, we are reviewing the fiscal year budget request 
for the Missile Defense Agency. We are very pleased to be able 
to welcome Vice Admiral Jim Syring, Director of the Missile 
Defense Agency.
    For fiscal year 2017, the President's budget requests $7.5 
billion for the Missile Defense Agency, a decrease of $800 
million, or almost 10 percent, from last year's enacted level.
    Over the past year, the Missile Defense Agency has had 
numerous successes, including fielding program upgrades to our 
Nation's Ground-based Midcourse Defense; establishing an Aegis 
Ashore site in Romania; and continuing our cooperative efforts 
with our allies worldwide, most notably with Israel.
    Recent successful tests of Israeli missile defense programs 
clearly demonstrate the value of your work.
    Despite the proposed fiscal year 2017 budget reductions, 
the budget requests full funding to deploy 44 ground-based 
interceptors by 2017. It continues our commitment to regional 
missile defense and invests in technologies to address evolving 
threats.
    We appreciate your efforts to strengthen and expand our 
national missile defense capabilities.
    Your full statement will be included in the record, and you 
may proceed to make opening remarks for the record.
    Admiral Syring. Thank you, Mr. Chairman.
    Senator Cochran. Excuse me, let me ask Senator Durbin if he 
wants to proceed with a statement.


                 statement of senator richard j. durbin


    Senator Durbin. Thanks, Mr. Chairman. I will be very brief.
    I thank the Admiral for joining us. It is an important 
discussion that we are going to have this morning, when you 
consider Kim Jong-un in North Korea and what he is up to, the 
Chinese in the South China Sea, the Russians, Iran. We have a 
full plate when it comes to the mission of your agency.
    I have a number of questions. I ask that my full statement 
be made a part of the record and defer back to the chairman.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Mr. Chairman, I am pleased to join you in welcoming Admiral Syring 
to our hearing on the fiscal year 2017 budget request for the Missile 
Defense Agency (MDA).
    The missile threats facing the United States are increasing in 
volume and complexity. North Korea is becoming even more belligerent, 
China is asserting its military power in the South China Seas, Russia 
has violated the Intermediate-Range Nuclear Forces Treaty, and several 
countries, including Iran, are developing missiles that are at risk for 
proliferation.
    Against this backdrop, the Missile Defense Agency is charged with 
protecting our country and our troops from missile attacks. Fiscal 
constraints, combined with the pace of technological change, make this 
an extremely challenging mission.
    My chief concern is that as we seek to protect ourselves against 
new threats, we do not repeat the mistakes of the past. Rushing systems 
and equipment into the field before they have been adequately tested 
did not improve our national security during the previous 
Administration, and ended up costing the taxpayers billions in wasted 
defense funds.
    The Government Accountability Office continues to have concerns on 
this front, particularly regarding some ground-based interceptors 
deployed to Alaska and California as well as a key interceptor used on 
Aegis warships.
    Admiral, under your leadership I believe we have made good strides 
in both performance and accountability for many missile defense 
programs. I look forward to reviewing what MDA is doing to address the 
concerns raised by GAO and others.
    In particular, I would welcome an update on the progress made since 
last summer's major intercept test, and the preparations for the test 
scheduled for later this year. This next event will be the most 
realistic test of our national missile defense system yet, and a lot is 
riding on it, including President's goal of deploying 44 ground-based 
interceptors by 2017.
    There are other important topics to discuss--the status of the 
Israeli Cooperative Programs, the progress of the Aegis Ashore sites in 
Romania and Poland, the ongoing need for better sensors, and efforts to 
make missile defense more affordable by looking to next generation 
technologies.
    Admiral, we look forward to hearing your thoughts on all of these 
issues. Thank you for your testimony this morning and for your service 
to our country.

    Senator Cochran. Thank you, Senator.
    You may proceed.

           SUMMARY STATEMENT OF VICE ADMIRAL JAMES D. SYRING

    Admiral Syring. Good morning, Mr. Chairman, Vice Chairman 
Durbin, distinguished members of the subcommittee. I appreciate 
the opportunity this morning to testify before you.
    I request your support of the fiscal year 2017 budget 
request, which is necessary to increase our capacity and 
capability of both our fielded homeland and regional missile 
defense systems, and make critical technology investments for 
the future.
    With the escalation of the threat from North Korea and Iran 
to include increasingly aggressive ballistic missile testing, 
we are working hard to find more cost-effective ways to do the 
missile defense mission. We need your continued strong support 
to improve the reliability of our homeland defenses and 
modernize our ground systems.
    We are moving forward with the redesigned kill vehicle 
program to further improve the reliability of the system.
    Ground-based interceptor upgrades and replacements also 
remain on track to reach 44 interceptors by the end of 2017.
    In fiscal year 2017, we plan to conduct two intercept 
flight tests to more fully demonstrate system performance of 
the GMD (Ground-Based Midcourse Defense) program against ICBMs 
(intercontinental ballistic missile).
    Among our planned homeland defense improvements to identify 
and track lethal objects, we will begin construction in fiscal 
year 2017 of the long-range discrimination radar in Alaska to 
improve system performance against the stated Pacific theater 
threats.
    To stay on schedule, it is critical we receive full funding 
for phase 1 of military construction in fiscal year 2017 for 
the radar equipment shelter.
    To bolster regional defenses in fiscal year 2017, we will 
continue to enhance the capability of the Aegis BMD weapons 
system and deliver additional Standard Missile-3 Block IBs.
    Our plans include maintaining support for the operational 
readiness of the Romania Aegis Ashore site we delivered to the 
warfighter in December 2015. We also remain on track to deliver 
the Aegis Ashore site in Poland by the end of 2018 to improve 
European NATO defenses against medium- and intermediate-range 
ballistic missiles.
    I also ask for your full support of our advanced technology 
work to stay ahead of the threat by discriminating and killing 
reentry vehicles with a higher degree of confidence in all 
phases of flight.
    Today, we are focused on directed energy, which I believe 
is a potential game-changer. Our work on laser scaling to 
achieve greater efficiency and lighter weight will enable a 
low-power laser demonstration in 2021 to determine the 
feasibility of destroying enemy missiles in the boost phase of 
flight.
    Finally, sir, we are very aware of the growing cyberthreat 
and are working aggressively to ensure the Nation's missile 
defenses are resilient and able to operate in this highly 
contested cyber environment. We are taking steps to ensure our 
cybersecurity structure has the latest security upgrades and 
patches, and continually assessing our systems, suppliers, and 
overall acquisition processes. We also have a rigorous cyber 
and supply chain risk management inspection program to examine 
everything about our systems from the trusted supply chain to 
the fielded operational capability.
    Thank you, Mr. Chairman. I look forward to the committee's 
questions.
    [The statement follows:]
             Prepared Statement of Vice Admiral J.D. Syring
    Good morning, Chairman Cochran, Vice Chairman Durbin, distinguished 
Members of the subcommittee. I appreciate this opportunity to testify 
before you today. Our current budget request of $7.5 billion for fiscal 
year 2017 will continue the development of defenses for our Nation, 
deployed forces, allies, and international partners against 
increasingly capable ballistic missiles. The fiscal year 2017 missile 
defense program will continue to support the Warfighter and needs of 
the Combatant Commanders with the development, testing, deployment, and 
integration of interceptors, sensors, and the command, control, battle 
management and communications (C2BMC) system for the Ballistic Missile 
Defense System (BMDS).
                        ballistic missile threat
    The threat continues to grow as potential adversaries acquire a 
greater number of ballistic missiles, increasing their range, 
incorporating BMD countermeasures, and making them more complex, 
survivable, reliable, and accurate. Space-launch activities involve 
multistage systems that further the development of technologies for 
intercontinental ballistic missiles (ICBMs). In addition to the Taepo 
Dong 2 space launch vehicle/ICBM, North Korea is developing and has 
paraded the KN08 road-mobile ICBM and an intermediate-range ballistic 
missile (IRBM) with a range greater than 3,000 km. Last October North 
Korea paraded a previously unseen, new, or modified road-mobile ICBM. 
North Korea has recently assumed an aggressive posture, having 
conducted rocket and ballistic missile launches in addition to the 
launch of the Taepo Dong 2 space launch vehicle/ICBM this past 
February. Today it fields hundreds of Scud and No Dong missiles that 
can reach U.S. forces forward deployed to the Republic of Korea and 
Japan.
    Iran has successfully orbited satellites and announced plans to 
orbit a larger satellite using a space launch vehicle (the Simorgh) 
that could be capable of intercontinental ballistic missile ranges if 
configured as such. Iran also has steadily increased its ballistic 
missile force, deploying next-generation short- and medium-range 
ballistic missiles (SRBMs and MRBMs) with increasing accuracy and new 
submunition payloads. Tehran's overall defense strategy relies on a 
substantial inventory of theater ballistic missiles capable of striking 
targets in southeastern Europe and the Middle East, including Israel. 
Iran continues to develop more sophisticated missiles and improve the 
range and accuracy of current missile systems, and it has publicly 
demonstrated the ability to launch simultaneous salvos of multiple 
rockets and missiles. Demonstrating it is capable of modifying 
currently deployed ballistic missile systems, Iran has flight-tested a 
Fateh-110 ballistic missile in an anti-ship role. By adding a seeker to 
improve the missile's accuracy against sea-based targets, Iran could 
threaten maritime activity throughout the Persian Gulf and Strait of 
Hormuz.
                       support for the warfighter
    Our priority is to continue to deliver greater missile defense 
capability and capacity to the Warfighter for employment in support of 
Combatant Command priorities. This budget maintains the commitment to 
build out homeland defenses to 44 Ground Based Interceptors (GBIs) by 
the end of 2017 and enhance GBI reliability. To strengthen regional 
defenses, we plan to deliver a total of 39 SM-3 Block IBs to the Navy 
in fiscal year 2017 for use on Aegis BMD ships and at the Aegis Ashore 
site, for a total of 146 delivered since December 2013. MDA also will 
deliver in fiscal year 2017 61 additional Terminal High Altitude Area 
Defense (THAAD) interceptors to the Army, for a total of 205 delivered 
since May 2011.
    On 18 December last year, we delivered the Aegis Ashore system in 
Romania in support of Phase 2 of the European Phased Adaptive Approach 
(EPAA). The technical capability declaration included the Aegis Ashore 
Romania missile defense complex, Aegis BMD 5.0 (Capability Upgrade, or 
CU) weapon system, as an integrated component of Aegis Baseline 9, and 
Standard Missile (SM)-3 Block IB (with a Threat Upgrade). This is the 
first EPAA land-based interceptor component, and it is mission capable 
today. On 30 December 2015, the U.S. Navy accepted ownership of the 
Aegis Ashore site in Romania. U.S. Warfighter acceptance is expected in 
May 2016. MDA will continue to support the Navy and NATO through the 
operation of the system. Also, plans remain on track to deliver a 
second Aegis Ashore site in Poland along with an upgraded missile 
defense system and the initial Standard Missile-3 (SM-3) Block IIA 
missiles by the end of 2018 to support EPAA Phase 3.
    MDA routinely provides Warfighter operational support by performing 
the mission essential functions of BMDS configuration control, asset 
management, and operational readiness reporting and by providing an 
operational-level interface to United States Northern Command 
(USNORTHCOM), European Command (USEUCOM), Central Command (USCENTCOM), 
and Pacific Command (USPACOM) and facilitating increased Warfighter 
participation in development of future missile defense capabilities. 
MDA will continue to lead the integration of evolving MDA, Service, and 
COCOM command and control capabilities through systems engineering 
analysis and development of technical integration requirements and 
interface control documents to address the continued fielding by U.S. 
adversaries of air, missile, and rocket capabilities.
    MDA executes a fully integrated test program that synchronizes the 
system with the Warfighters trained to operate the system under varying 
wartime conditions against current and emerging threats. This ensures 
that BMDS capabilities are credibly demonstrated and validated prior to 
delivery to the Warfighter. We continue to work closely with 
independent testers within DOD--the Director, Operational Test and 
Evaluation; Deputy Assistant Secretary of Defense, Developmental Test & 
Evaluation; Service Operational Test Agencies; and Combatant Commands, 
represented by the Joint Forces Component Commands Integrated Missile 
Defense -to develop an Integrated Master Test Plan to execute a robust, 
cost-effective flight test program. Our flight tests feature 
operationally realistic conditions and integrate U.S. government 
stakeholders--to include Soldiers, Sailors, Airmen, and Marines--and 
allies to prove BMD capabilities before they are fielded. From October 
2014 to the present, we have executed 25 flight tests. For the 
remainder of fiscal year 2016 we will conduct six more flight tests, 
and in fiscal year 2017 16 flight tests. In addition to 22 element 
level ground tests, we conducted 11 developmental and operational 
system-level ground tests from October 2014 to the present. There are 
three more system-level ground tests scheduled for this fiscal year, 
and four more planned for fiscal year 2017. Last year we also conducted 
or participated in more than 20 multi-event exercises and wargames, 
which are critical to the Warfighter and the intensive engineering 
efforts across the Agency.
          increasing reliability and confidence in the system
    Before I review our fiscal year 2017 program, I want to give you a 
brief overview of what we are doing within the current program to 
increase reliability and confidence in the system and how we are 
developing technologies to get ahead of what is sometimes referred to 
as the kinetic (hit-to-kill) cost curve.
    We are working hard to find more cost-effective ways to do the 
missile defense mission. There are challenging scenarios where 
adversaries will be able to launch large numbers of relatively cheap 
and increasingly complex missiles and our only option is to intercept 
them with very expensive weapon systems. MDA is making critical 
investments in future system development that we believe will 
significantly improve system performance and effectiveness. By 
improving reliability, enhancing discrimination, and expanding battle 
space to make possible a re-engagement firing strategy, I believe we 
can reduce the cost per kill. We also need to investigate solutions 
that help reduce reliance on expensive kinetic intercept solutions.
    Reliability is paramount and a critical part of how the warfighter 
decides upon a shot doctrine, that is, the estimation of how many shots 
it will take to defeat a credible threat. With a highly reliable 
interceptor, fewer shots would be required. As we are able to decrease 
the number of shots we must take against each threatening missile, we 
can increase overall warfighter confidence in the effectiveness of the 
system. The work we are doing to improve GBI reliability and develop 
the Redesigned Kill Vehicle (RKV) will help us reach this objective. We 
can also improve the missile defense cost curve by increasing the 
number of kill vehicles we place on a single interceptor. This is the 
rationale behind the Multi-Object Kill Vehicle (MOKV) program--the more 
kill vehicles we can put on an interceptor, the greater raid capacity 
our Ground-based Midcourse Defense system will have. I will address 
both of these efforts in more detail below.
    We must also take steps to improve the discrimination and 
assessment capabilities of the system. The better Warfighters are able 
to determine the lethal payload in a target cluster and assess whether 
it has been actually hit, the fewer interceptors they will need to 
expend. With our investments in radars while developing advanced 
electro-optical sensors, we are striving for a diverse sensor 
architecture that eventually will provide highly accurate midcourse 
tracking and discrimination. Development of the Long Range 
Discrimination Radar and our advanced discrimination sensor technology 
and space-based kill assessment programs will improve system target 
discrimination and assessment capabilities. Improved sensor coverage 
and interceptor capabilities will help the warfighter expand the battle 
space in order to reengage threats as needed.
    The development of non-kinetic technologies, such as directed 
energy, and new concepts of operation, such as boost-phase intercept 
and left-of-launch missile defeat, are game-changing and would have a 
dramatic effect on the need to rely exclusively on expensive 
interceptors.
    I will address all of these development efforts and initiatives 
below.
                            homeland defense
    MDA remains committed to operating, sustaining, and expanding our 
Nation's homeland missile defenses and requests $1.32 billion in fiscal 
year 2017 for the Ground-based Midcourse Defense (GMD) program, or $440 
million below what we requested in PB 16. The fiscal year 2017 budget 
request is lower than the fiscal year 2016 budget due to the fact that 
the fiscal year 2016 budget provided a significant increase to 
historical funding to improve overall reliability and performance and 
extend the service life of the GMD system. Last year's larger request 
was driven by the developmental content required to reach 44 GBIs by 
the end of 2017, the first full year of the RKV program, ground system 
modernization, completion of Capability Enhancement (CE)-II Block 1 
design and full-rate manufacturing as well as CE-II upgrades, 
development, and procurement. This year we will continue efforts to 
expand the GBI fleet to 44 by the end of 2017 for Enhanced Homeland 
Defense, continue flight and system ground testing, undertake RKV and 
C3 Booster development, enhance the Stockpile Reliability Program, 
expand the battle space to enable later GBI engagements, upgrade the 
GMD ground system, and deploy upgraded GMD fire control software to 
enhance our ability to use land-based sensor discrimination data. We 
will continue to add precision and confidence in our reliability 
assessments by performing failure modes and process analyses, 
reliability testing, short-circuit and grounding analyses, and 
verification of our on-going development efforts.
Increasing GBI Capacity
    We resumed interceptor manufacturing following the successful 
intercept in the June 2014 FTG-06b flight test. Since October 2014 we 
have delivered eight GBIs equipped with the CE-II Exo-atmospheric Kill 
Vehicle (EKV) identical to the configuration flown in that test. We 
have also removed eight previously delivered CE-II GBIs and are 
modifying them to match the FTG-06b configuration. These upgraded GBIs 
began delivery in March 2016. We are completing development of the CE-
II Block 1 EKV and Configuration 2 (C2)/Consolidated Booster Avionics 
Unit (CBAU) for the Integrated Boost Vehicle (IBV) to address parts 
obsolescence and eliminate several reliability concerns found in the 
older GBIs. Our confidence in the CE-II Block 1 IKV design changes was 
enhanced by the results of the GM Controlled Test Vehicle flight test 
(GM CTV-02+) earlier this year. We expect the FTG-15 intercept test 
planned for the end of this calendar year using a CE-II Block 1 EKV and 
C2/CBAU IBVto boost that confidence level even further. Upon a 
successful FTG-15 flight test, we plan to deliver ten GBIs configured 
with CE-II Block 1 EKV and C2/CBAU IBV.
GMD Testing
    This past January we successfully executed GM CTV-02+, a non-
intercept flight test involving the launch of a GBI from Vandenberg Air 
Force Base and an air-launched IRBM target over the Pacific Ocean. We 
were able to exercise fully the new Alternate Divert Thruster in the 
CE-II EKV in a flight environment and undertake an early evaluation of 
near term discrimination improvements for homeland defense. The EKV 
used SPY-1, SBX, and AN/TPY-2 data for target selection.
    The next intercept flight test of the GMD system will take place 
later this calendar year. FTG-15 will be the first intercept flight 
test for the CE-II Block 1 EKV and the C2/CBAU IBV. It also will be the 
first intercept of an ICBM range target by the GMD system or any other 
BMDS element. A successful test will allow MDA to meet the commitment 
to deliver 44 GBIs by the end of 2017. Following FTG-15, MDA, in 
collaboration with DOT&E, plans to conduct the FTG-11 operational 
intercept flight test in the first quarter of fiscal year 2018, which 
will demonstrate the full capability of the GMD system with a two GBI 
salvo for an engagement of an ICBM.
Redesigned Kill Vehicle
    The primary objective for the RKV is to improve reliability. Its 
development will make homeland defenses more robust. We plan to employ 
a modular design made up of mature subsystems and components to improve 
producibility, maintainability, and reduce unit cost. The RKV program 
will strive for performance improvements by incorporating on-demand 
communications between the kill vehicle and the ground, a wide field of 
view seeker, improved data processing and discrimination algorithms, 
and enhanced survivability. We established a cross-industry team to 
develop the RKV. We will then compete the production of an RKV-equipped 
GBI all-up round. The program schedule includes a controlled test 
vehicle flight test of the RKV in 2018 (GM CTV-03) and first intercept 
flight test in 2019 (FTG-17) to demonstrate the RKV, with a second 
intercept flight test in 2020 (FTG-18). We plan initial deliveries of 
the RKV in the 2020 timeframe.
    In order to achieve full capability of the RKV, improvements are 
needed in other areas of the GMD program. We will modify the booster so 
that it can fly in either a selectable two-stage or three-stage mode 
and match survivability of the RKV. Additionally, we will upgrade the 
GMD fire control software to enable mixed engagements with RKV and EKV 
capabilities, utilize improved sensor data for on-demand 
communications, and provide improved situational awareness information 
to the Warfighter. We will modify components of the In-Flight 
Interceptor Communications System Data Terminals (IDT) to enable on-
demand communications.
Ground System Upgrades
    The Ground System hardware at Fort Greely and Vandenberg Air Force 
Base is 1990s technology installed in the early 2000s. We have parts 
obsolescence challenges and the operating systems are no longer 
supported by the original manufacturers. Without an upgrade, ground 
system reliability would decay and impact GBI availability to the 
Warfighter.
    Plans include the refurbishment of Missile Field 1 at Fort Greely, 
upgrades to the GMD ground system hardware, improvements to the fire 
control software, and substantial reliability testing and assessments 
to characterize the reliability and performance of the system. The work 
on Missile Field 1 began last year. We will complete the refurbishment 
and reactivation of Missile Field 1 in 2016 to provide sufficient silos 
for 44 GBIs. We have cleaned out the rust and mold in the utilidor and 
upgraded the climate control system to match what we have in Missile 
Field 2 and Missile Field 3. (A utilidor is an underground man-made 
structure used in extreme cold climates to run utilities lines between 
facilities. If the utilities--communications lines, power, heating and 
ventilation (HVAC)--were buried into the ground the freeze and thawing 
of the ground would crush the plastic casings.) The old Mechanical 
Electrical Building (MEB) was demolished and the new MEB completed in 
March 2016. We will complete replacement of Command and Launch 
Equipment, GMD Fire Control (GFC) equipment, and IDT equipment by 2017. 
The Fort Drum, New York IDT construction is complete and now 
operationally available to the Warfighter. This new IDT will enable 
communication with GBIs launched from Fort Greely, Alaska and 
Vandenberg Air Force Base in California over longer distances and 
improve defenses for the eastern United States.
    We are also initiating a longer term effort to replace the GMD 
Communications Network equipment by 2019. We will deliver two 
significant upgrades to the GFC software. The first, GFC 6B3, provides 
the Warfighter the capability to operate with 44 GBIs, improves 
discrimination capability, and adds several warfighter requested 
upgrades to improve operational capability. The second, GFC 7A, 
improves fail-over between redundant systems and system availability by 
removing the aging Command and Launch Equipment and streamlining the 
GMD fire control system architecture. Ground Systems Build 7B is also 
underway and will be in full development in 2017. The 7B build includes 
upgrades for two- or three-stage selectable boosters and associated 
flyouts, improved nuclear weapons effects planning, improved battle 
management, additional target discrimination capabilities, and the new 
RKV On-Demand Communications.
Homeland Defense Sensors
    Last year we integrated, tested, and delivered the capability for 
the Warfighter to manage the second PACOM AN/TPY-2 radar in Japan and 
introduced the boost phase cue capability of that radar site into the 
BMDS. This radar and the new C2BMC capability will enhance the overall 
performance of the two Japan radar sites when operating in a mutually 
supporting AN/TPY-2 dual radar mode, providing improved tracking 
coverage for all ballistic missile launches out of North Korea.
    The Cobra Dane Early Warning Radar is now operating new software to 
enhance object classification for the Discrimination Improvement for 
Homeland Defense (DIHD)-Near Term capability. We will continue missile 
defense upgrades of the Early Warning Radars in Clear, Alaska and Cape 
Cod, Massachusetts. We completed Cape Cod UEWR facilities design in 
August 2015 and began facility modifications in September 2015. We 
expect to complete the Clear radar upgrade in second quarter fiscal 
year 2017 and the Cape Cod upgrade in the fourth quarter of fiscal year 
2017.
    With our budget request of $68.8 million in fiscal year 2017 for 
the Sea Based X-band (SBX) radar, we will continue to support flight 
testing with SBX to demonstrate improvements to discrimination and 
debris mitigation and be available for contingency operations. SBX will 
continue development of Discrimination Improvements for Homeland 
Defense. This past year the U.S. Coast Guard and American Bureau of 
Shipping 5-year recertification of SBX vessel was completed. SBX also 
completed significant industrial work, including overhaul of two 
thrusters and three diesel generators, hull preservation, upgrade of 
the radar cooling system, and replacement of obsolete computer 
components.
    In fiscal year 2017 we request $162.0 million to continue the 
development of the Long Range Discrimination Radar (LRDR), the new 
midcourse tracking radar that will improve discrimination capabilities 
against threats to the homeland from the Pacific theater. LRDR will 
provide larger hit assessment coverage enabling improved warfighting 
capability to manage GBI inventory and improving the capacity of the 
BMDS. The Deputy Secretary of Defense approved designation of the U.S. 
Air Force as the Lead Service for the LRDR this past August. Supported 
by system trade studies and with concurrence from the USSTRATCOM, 
USNORTHCOM and USPACOM Commanders, the Clear Air Force Station, Alaska 
was selected as the future site of the LRDR. We are also requesting 
$155.0 million MILCON in 2017 for construction of the LRDR System 
Complex at Clear AFS, to include the mission control facility, the 
radar foundation, site infrastructure and security, along with the 
necessary utilities to provide initial operations of the radar. We 
request the MILCON be fully funded to ensure an on-time delivery of the 
facilities, which in turn allows the Radar Prime contractor to erect 
the radar equipment shelter and install the radar components to meet 
the 2020 operational requirement. The LRDR System Complex Phase 2 
project is planned in 2019 to provide a permanent shielded power plant 
for the radar system.
Homeland Defense C2BMC
    We request $439.6 million in fiscal year 2017 for Command, Control, 
Battle Management and Communications (C2BMC). We are fielding C2BMC 
Spiral 8.2-1 capabilities to NORTHCOM and PACOM in the 4th quarter of 
fiscal year 2017 to support an enhanced homeland defense capability. 
This will allow C2BMC to integrate data from multiple TPY-2 radars, 
SBX, UEWRs, Cobra Dane, and space sensors to increase system raid size 
and tracking capacity by a factor of five. It will also improve the 
system information security posture. We also are developing C2BMC 
Spiral 8.2-5 to support LRDR sensor management and enhanced engage-on-
remote and support a more robust homeland defense by December 2020.
                           regional defenses
    Our fiscal year 2017 budget request continues to prioritize 
deployment of regional defenses to protect our deployed forces, allies 
and international partners against SRBMs, MRBMs, and IRBMs in support 
of Combatant Commanders' near-term and future priorities.
Terminal High Altitude Area Defense
    We have delivered and started training for the fifth Terminal High 
Altitude Area Defense (THAAD) Weapon System Battery and completed 
training on the fourth battery now under Army control. To meet the 
demand for THAAD, MDA recently delivered 12 THAAD interceptors for U.S. 
batteries and 24 for THAAD batteries operated by the United Arab 
Emirates (UAE). This past year we also delivered the latest evolution 
in THAAD software, SW B2.2.1 Debris Mitigation Phase I capability and 
flight-tested SWB2.7.0. MDA continued to provide maintenance and supply 
support of the first deployed THAAD battery (comprising the THAAD 
system and AN/TPY-2 radar) in Guam.
    This past fall THAAD added two more successful intercepts, 
improving its hit-to-kill record since 2006 to 13 for 13. FTO-02 Event 
2a was our first operational test of integrated regional BMD 
capabilities, with the THAAD and Aegis BMD weapon systems sharing 
common defended areas. Two air-launched ballistic missile targets and 
one cruise missile target were launched in this scenario. The THAAD 
battery destroyed the first ballistic missile target, demonstrating its 
advanced algorithm capability and satisfying a condition for the Army's 
materiel release of the THAAD weapon system. Following receipt of the 
remote cue, the Aegis BMD ship, USS John Paul Jones, operating in the 
Integrated Air Missile Defense mode, launched to engage the second 
target, but the SM-3 Block IB Threat Upgrade missile experienced an 
anomaly early in flight. The THAAD battery crew, which also had 
launched a second THAAD interceptor at the medium-range ballistic 
missile, located this second target and destroyed it. The crew of the 
USS John Paul Jones then used the SM-2 Block IIIA guided missile to 
destroy a cruise missile target. The test, conducted at Wake Island, 
also involved the THAAD Terminal Mode AN/TPY-2 Radar, the Forward Based 
AN/TPY-2 Radar, and Aegis BMD Spy-1 Radar, and the C2BMC 
infrastructure, as well as space sensor assets. Warfighters 
representing the entire chain of command operated the BMDS system while 
using tactics, techniques and procedures and successfully defended 
against air and missile attacks. This test was a valuable demonstration 
of the benefits of layered, integrated missile defenses.
    In fiscal year 2017 THAAD will participate in two flight tests, 
FTT-18 and FTT-15. In FTT-18 THAAD will demonstrate an intercept of a 
separating IRBM target using the THAAD radar, launcher, fire control 
and communication, interceptor operations and engagement operations. 
Turbulent weather in the Pacific Ocean precluded the timely execution 
of FTO-02 E2, which forced the delay of FTO-02 E2a. The turbulent 
weather forced the delay of FTO-02 E2 into the FTT-18 window in late 
fourth quarter fiscal year 2015, effectively forcing the re-planning of 
FTT-18 into fiscal year 2017. In fiscal year 2017, we will conduct FTT-
15 to demonstrate the capability of the system to do an endo-
atmospheric intercept against an MRBM target with associated objects.
    For fiscal year 2017, MDA is requesting $369.6 million for THAAD 
procurement, which includes the purchase of 24 THAAD interceptors. By 
the end of fiscal year 2017, MDA will deliver an additional 61 THAAD 
interceptors to the U.S. Army, for a total of 197 interceptors in 
inventory (this total does not include interceptors expended in flight-
testing including two we plan to expend in FTT-18 and FTT-15). We will 
deliver and initiate training for the 7th THAAD Battery and complete 
training for the 6th THAAD Battery and turn it over to the Army by the 
end of fiscal year 2017. We will also complete the training of the 2nd 
UAE THAAD Battery and continue to support the forward deployed THAAD 
battery in Guam.
    We are requesting $270.3 million in RDT&E funding in fiscal year 
2017 as part of the continued development and testing of THAAD baseline 
2.0 capabilities. THAAD will continue activities to explore and mature 
the design concept of expanding THAAD system interoperability with air 
and missile defense systems and expanding the battlespace and defended 
area of the current baseline THAAD Weapon System. We are also 
requesting $72.1 million for THAAD operations and maintenance for 
delivered batteries.
Aegis Ballistic Missile Defense
    Aegis BMD continues to be the backbone of the Nation's regional 
defense for our deployed forces, allies, partners and friends, and 
directly supports and expands our homeland defenses with long range 
surveillance and track capability. The fiscal year 2017 budget request 
supports continued advancement of the system to counter the growing 
threats.
    In fiscal year 2015, MDA expanded global BMD capability for the 
Aegis Fleet. Together with the U.S. Navy, we completed four BMD Weapons 
System upgrades on Aegis ships--two Aegis BMD 3.6 to 4.0 ships (ships 
with 4.0 can cover a wider threat set compared to the initial weapon 
system), and two Aegis BMD 3.6 to Aegis Baseline 9.C1 (BMD 5.0 
Capability Upgrade (CU)) ships (ships with Baseline 9 and 5.0 CU can 
conduct the anti-air warfare and ballistic missile defense missions 
concurrently). We also commenced four additional upgrades, one from 3.6 
to 4.0 and three from 3.6 to Aegis Baseline 9.C1 (BMD 5.0 CU). All 
upgrades were done to the existing BMD fleet of 33 BMD-capable Aegis 
ships. To meet an ever-growing demand by the Combatant Commanders, we 
continued delivery of Standard Missile-3s, including eight Block IAs 
and 20 Block IBs. fiscal year 2015 also marked the end of manufacturing 
for SM-3 Block IA rounds. We completed 26 Block IA recertifications and 
will continue to support maintenance for the deployed SM-3 Block IA 
rounds. In 2016, we expect to complete analysis that would support the 
extension of service life of the SM-3 Block IAs from 8 to 12 years, 
leaving these critically needed assets in the Fleet 50 percent longer.
    MDA conducted several critical flight tests this past year to prove 
the operational effectiveness of Aegis BMD and support certification of 
the at-sea and ashore versions of Aegis Baseline 9 (BMD 5.0 CU) Weapon 
System. Starting with FTM-25 on November 6, 2014, we successfully 
executed integrated air and missile defense (IAMD) by intercepting one 
short-range ballistic missile target with an SM-3 Block IB, while 
simultaneously engaging two air-breathing threats with SM-2 Block 
IIIAs. For this test, the Aegis Baseline 9 ship, USS John Paul Jones, 
was configured in IAMD mode, which provides the ship the ability to 
manage SPY-1 radar resources to conduct both anti-air warfare and 
ballistic missile defense concurrently. All three targets were 
successfully intercepted, and we met all primary and secondary 
objectives.
    In FTX-19, conducted in February 2015 off the coast of Virginia at 
NASA's Wallops Island facility, MDA successfully simulated engagements 
against a raid of three short-range targets using the Aegis BMD 4.0 
Weapons System, demonstrating coordinated SM-3 engagements between two 
Aegis BMD ships utilizing the Distributed Weighted Engagement Schema 
between two Aegis ships coordinating engagements. This weapon system 
functionality will be used, particularly in raid scenarios, when more 
than one ship is able to engage inbound threat missiles, and it 
determines a Preferred Shooter solution for SM-3 engagements. During 
this test, an Aegis Baseline 9 (BMD 5.0 CU) ship also participated, 
performing IAMD by simultaneously conducting simulated engagements of 
the three SRBM targets and four simulated anti-air warfare targets.
    In July MDA and the Navy conducted a series of four flight test 
events to verify the Sea-Based Terminal capability. The Sea Based 
Terminal program delivers an added layer of defense for Aegis BMD to 
engage short range threats in the terminal phase of flight and defend 
the sea base and high value assets ashore. During this series, the USS 
John Paul Jones used Aegis Baseline 9 (BMD 5.0 CU) to search, detect, 
track, and discriminate two short-range ballistic missile targets and 
two cruise missile targets. In four separate flight test events we 
verified the Sea Based Terminal capability using the SM-6 Dual I and 
the SM-2 Block IV missiles, successfully destroying the short-range 
ballistic missile and cruise missile targets and demonstrating the 
ability of Aegis Baseline 9 (BMD 5.0 CU) and the SM-6 to conduct both 
terminal ballistic missile defense and anti-air warfare. This campaign 
marked the first flight of the SM-6 Dual I missile, and it was the 
first demonstration of the tactical interface between the Aegis 
Baseline 9.C1 Weapons System and the SM-6 and SM-2 Block IV guided 
missiles. The SM-6 is a dual-use (anti-air warfare and BMD) missile 
that provides an accurate and highly capable BMD capability. It will 
replace the legacy SM-2 Block IV for terminal defense as those missiles 
reach the end of their service life. We are planning additional flight 
tests in 2016 for SM-6 Dual I missiles, which will enter the fleet 
inventory this spring.
    This past December we successfully conducted the Standard Missile-3 
(SM-3) Block IB Threat Upgrade (TU) controlled test vehicle (CTV) test, 
which we launched to engage a simulated ballistic missile target. The 
simulated engagement was controlled by the Aegis Ashore Missile Defense 
Test Complex with Aegis Baseline 9 (BMD 5.0 CU) to verify G-switch 
operation of the SM-3 Block IB TU. This test put us in a confident 
position later in the day to conduct the operationally realistic FTO-02 
E1a intercept test. The Aegis Ashore missile defense test complex at 
the Pacific Missile Range Facility in Hawaii fired the SM-3 Block IB 
interceptor for the first time to collide with and destroy an air-
launched MRBM target. This operational flight test was the first to 
demonstrate an intercept using the Aegis Ashore test complex and 
demonstrated important modernization updates to the Aegis Weapon 
System.
    In fiscal year 2017, we will continue our commitment to develop, 
test, and deliver global naval capability to the Warfighter and support 
defense of our deployed forces and European NATO allies through 
supporting operational readiness of EPAA Phase 2 and delivery of Phase 
3. In fiscal year 2016, following successful flight testing of the 
redesigned SM-3 Third Stage Rocket Motor nozzle to increase overall 
missile reliability, MDA anticipates a full-rate production decision 
for the SM-3 Block IB. Anticipating that authorization, we request 
$463.8 million in fiscal year 2017 to procure 35 SM-3 Block IBs and 
supporting material, for a total of 256 procured (235 Defense Wide 
Procurement plus 21 RDT&E) and 146 delivered by the end of fiscal year 
2017. To recertify SM-3 rounds that have been previously delivered and 
deployed to the Fleet, MDA requests $38.9 million in fiscal year 2017 
for sustainment of SM-3 assets.
    We request $106.0 million for the SM-3 Block IIA Cooperative 
Development (SCD) effort with the Japan Ministry of Defense. In fiscal 
year 2015, the SM-3 Block IIA executed a controlled test vehicle, in 
which controlled first-stage flight through nosecone separation was 
successfully demonstrated. In December of 2015, a second controlled 
flight test was conducted to further test the Kinetic Warhead and 
Throttleable Divert and Attitude Control System. We will complete 
flight testing for the SCD Project with two intercept tests scheduled 
for the fourth quarter in fiscal year 2016 and second quarter in fiscal 
year 2017. In fiscal year 2017, we will begin transition to testing the 
SM-3 Block IIA within the U. S. BMDS architecture with the upgraded 
Aegis Baseline 9 weapon system and BMD 5.1, for at sea and ashore 
deployment, and we request $254.7 million in RDT&E funding to continue 
manufacturing rounds to support flight testing and EPAA Phase 3.
    MDA is strongly committed to further enhancing capability of the 
Aegis BMD weapon system to give Sailors the tools needed to 
successfully execute their mission. In fiscal year 2015, we delivered 
the BMD 4.0.3 weapon system, which further enhances Aegis BMD's 
homeland defense role by improving long range surveillance and tracking 
capability to provide data to the GMD system for longer range and more 
sophisticated threats. MDA requests $28.3 million in fiscal year 2017 
for the BMD 4 series weapon systems to bring advanced threat and raid 
scenario capability to the legacy Aegis BMD Fleet. Having certified the 
Aegis Baseline 9.C1 (BMD 5.0 CU) weapon system in November of 2015, MDA 
is shifting focus towards delivering BMD 5.1 capability on schedule and 
requests $92.4 million to continue software development and testing to 
certify in fiscal year 2018 and meet the delivery timeline of the SM-3 
Block IIA for deployment on ships and at Aegis Ashore sites. In 
addition to weapon system development, MDA requests $50.1 million to 
procure weapon system equipment for installation and upgrade to the BMD 
Fleet and $19.9 million to sustain BMD specific equipment on the 
existing Fleet.
    Adding an additional layer to the Aegis BMD weapon system, we are 
using an incremental development approach integrated within the Navy's 
Baseline 9 architecture to develop and deliver a Sea Based Terminal 
capability. By expanding the capability of the SM-6 guided missile and 
BMD 5 series weapon systems, we are delivering capability to protect 
maritime forces against anti-ship ballistic missiles and provide 
layered defense for forces ashore. We will further test the first 
increment of Sea Based Terminal with follow-on performance testing in 
fiscal year 2016 during FTX-21. Sea Based Terminal Increment 2 is on 
schedule to be certified and operational in the 2018-2019 timeframe.
European Phased Adaptive Approach
    We will continue to support the EPAA as a U.S. contribution to NATO 
BMD to provide full coverage and protection of NATO European territory, 
populations, and forces from the increasing threat of ballistic missile 
proliferation from outside of the Euro-Atlantic area by investing 
resources for EPAA development, testing and deployment. It is important 
to emphasize that this capability is not capable of threatening, nor is 
it intended to threaten, Russia's strategic nuclear deterrent. EPAA 
Phase 1 was implemented in 2011 with the fielding of an AN/TPY-2 radar 
in Turkey and stationing of an Aegis BMD ship in the Eastern 
Mediterranean. EPAA Phase 2 achieved technical capability declaration 
in 2015, which enhances U.S. and NATO capabilities with the addition of 
Aegis Ashore in Romania, additional deployment of Aegis BMD ships home-
ported in Rota, Spain, more capable Aegis BMD SM-3 Block IBs, and an 
upgraded Baseline 9 weapon system with BMD 5.0 CU. With Aegis Ashore 
Romania turned over to the Navy for operations, in fiscal year 2017 we 
have requested $13.9 million for sustainment of the system. To augment 
needed ship stationing requirements of EPAA Phase 2, MDA is providing 
sustainment support for BMD specific equipment to the four ships that 
shifted home ports to Rota, Spain.
    Although not directly in support of the BMDS architecture for EPAA 
Phase 2, MDA assisted the Maritime Theater Missile Defense Forum and U. 
S. Navy in a multi-national, 2 month long event. At-Sea-Demonstration 
15 (ASD-15) met its objective to prove multi-national interoperability 
for air and ballistic missile defenses. During the seven weeks of live 
fire events, four IAMD scenarios were exercised. The capstone IAMD 
event was an SM-3 Block IA intercept of a short range threat by the USS 
Ross cued by Netherlands' HNLMS De Zeven Provincien, with simultaneous 
engagements of air breathing targets by the USS The Sullivans and 
Canada's HMCS Montreal. United Kingdom and Spanish ships sent track 
data for analysis back to Dahlgren, Virginia. In all, ASD-15 
demonstrated the power of a multinational maritime task force to share 
information and work cooperatively in a complex integrated air and 
missile defense environment.
    EPAA Phase 3 will improve defensive coverage against medium- and 
intermediate-range threats with the deployment of a second operational 
Aegis Ashore site in Poland, equipped with the upgraded Aegis Baseline 
9 weapon system with BMD 5.1 and capability to launch SM-3 Block IIAs. 
These Aegis Weapon System upgrades are further enhanced by spiral 
upgrades to the C2BMC network enabling Engage on Remote capability and 
extended defensive coverage for NATO Europe. In fiscal year 2016 we 
requested $169.2 million for the construction of the Aegis Ashore site 
in Poland. The MDA MILCON contract for the Redzikowo, Poland Aegis 
Ashore site was awarded on February 10, 2016, and construction start 
was March 2016. We request $57.5 million in fiscal year 2017 for 
procurement of Aegis Ashore equipment. We plan to complete this site by 
the end of 2018 and will upgrade the Aegis Ashore Romania site to BMD 
5.1 when operationally feasible.
Command, Control, Battle Management, and Communications and Sensors
    C2BMC provides persistent tracking, cueing, discrimination, and 
fire control quality data to Aegis BMD, GMD, THAAD, and coalition 
partners to support homeland and regional defense objectives. We 
continue to support Warfighter command, control and battle management 
needs across the globe by providing the strategic BMD planner, which 
provides Combatant Commanders situational awareness tools to support 
weapons release authority for homeland defense and control and tasking 
of forward-based AN/TPY-2 radars. C2BMC operators and maintainers are 
deployed forward in some of the world's highest threat spots and 
continue to provide around-the-clock support to the local commanders.
    As the BMDS integrating element, C2BMC has demonstrated proven 
interoperability across regional BMD architectures. Of note this past 
year in the regional defense area, we integrated with Aegis Ashore to 
support Aegis Launch on Remote capability required for EPAA Phase 2 
declaration in December 2015. MDA also fielded Cross-Area of 
Responsibility capability to USEUCOM and USCENTCOM C2BMC, allowing each 
Combatant Command to take advantage of the other's BMD assets. We also 
supported enhancements to the BMDS to keep pace with emerging threats 
worldwide by investing in the development, integration, and testing of 
advanced algorithms to improve discrimination capabilities and enhance 
the use of space-based sensor data using the BMDS Overhead Persistent 
InfraRed (OPIR) Architecture (BOA). MDA's C2BMC engineers continued to 
make progress in the Simultaneous Correlation of Unambiguous Tracks 
(SCOUT) algorithms and Aggregated Discrimination. SCOUT is a multiphase 
activity to develop a physics-based capability to identify the lethal 
object(s) of a threat complex in a moderately complex countermeasure 
environment.
    We will field C2BMC Spiral 8.2-1 to USNORTHCOM and USPACOM in the 
fourth quarter of fiscal year 2017 in support of enhanced homeland 
defense. Spiral 8.2-1 is a complete hardware update to the C2BMC System 
that will allow C2BMC to integrate data from multiple TPY-2 radars, 
SBX, UEWR, Upgraded Cobra Dane, and BMDS OPIR architecture. It will 
increase system raid size and tracking capacity by a factor of five and 
will improve the system Information Assurance/Cyber security posture. 
Continued development, integration and testing of C2BMC Spiral 8.2-3 
(Engage on Remote) will support the EPAA Phase 3 capability declaration 
in December 2018. Development of C2BMC Spiral 8.2-5 (LRDR Sensor 
Management and Enhanced Engage on Remote) will enable us by December 
2020 to reach a robust homeland defense capability. Finally, we will 
continue to support incremental improvements to the BMDS to keep pace 
with emerging threats world-wide by investing in the development, 
integration and testing of advanced algorithms to improve 
discrimination capabilities and to enhance the use of space based 
sensor data using the BMDS OPIR architecture.
    We request $32.1 million for continued operation of the Space 
Tracking and Surveillance System (STSS) in fiscal year 2017. STSS 
satellites operate in low earth orbit and continue to collect valuable 
test data. STSS collected data on the most complex scenes to date 
during the FTX-20 test event in October 2014. (FTX-20 involved the 
launch of a separating MRBM and the simulation of an exo-atmospheric 
engagement by an Aegis Baseline 9.C1 configured destroyer. GM CTV-02+ 
involved a non-intercept test of a Ground Based Interceptor against a 
complex target scene presented by an air launched IRBM.) STSS also 
successfully tracked and collected data during Glory Trips 215 and 212, 
and participated in two other Air Force Global Strike Command flight 
tests of the Minuteman III.
    In fiscal year 2015, we began the process of decommissioning the 
Near-Field Infrared Experiment (NFIRE) satellite that MDA launched in 
April 2007. This satellite captured high resolution phenomenology data 
from the exhaust plumes of boosting ballistic missiles. The NFIRE 
satellite was decommissioned in August 2015 and safely deorbited this 
past November. Looking to the future, we completed the Critical Design 
Review for the Spacebased Kill Assessment (SKA) in January 2015 and the 
SKA Flight Model Manufacturing Review in April 2015; delivered the 
first shipset of flight models to the payload integrator in November 
2015 and the second shipset in January 2016. The SKA experiment is 
comprised of a network of sensors hosted on commercial satellites to 
collect data on missile intercepts, make an independent kill 
assessment, and pass that information on to the BMDS to support a 
multi-sensor kill assessment of the target. In fiscal year 2017 we will 
complete the integration and testing of SKA payloads onto hosted 
payload modules and satellites and conduct on-orbit deployment, 
checkout, calibration and commissioning of the SKA sensor network.
    The Services and COCOMs, with logistical support from MDA, are 
operating forward based X-band radars (AN/TPY-2(FBM)) in Japan, Israel, 
Turkey, and United States Central Command. All of these radars 
contribute to regional defense, and some also provide a significant 
contribution to the defense of the U.S. homeland. Last year we 
completed the integration and performance characterization testing of 
the 2nd AN/TPY-2 radar to Japan, located at Kyogamisaki (Site KCS). In 
order to reduce noise levels at a seaside community near the KCS site, 
we completed muffler installation on Mobile Electric Power (MEP) -810 
power generators in March 2015. MDA increased environmental protection 
for the radar equipment by coordinating and receiving approval for 
construction and modification of the Prime Mission Equipment/Rubb 
structure at Site KCS. In fiscal year 2015 we delivered new operational 
mission profiles that provided cooperative coverage/capability for 
USEUCOM and USCENTCOM sensors and successfully completed operational 
flight testing of new capabilities in operational flight tests (FTO-02 
events) and ground test campaigns, improving cross-Area Of 
Responsibility operational mission profiles, debris mitigation logic 
and increases operational availability. Last year we completed the 
THAAD Reliability Growth Test and critical maintenance periods on 
Radars #2, #3 and #5 at Guam. We also delivered Radar #11 to THAAD 
Battery #6 and continued production of Radar #12 (the final U.S. 
production AN/TPY-2).
    We request $653.4 million in fiscal year 2017 to develop, deploy, 
test, and sustain BMDS sensors (this includes $162.0 million for the 
continued development of the Long Range Discrimination Radar), and 
$172.6 million to sustain the twelve (terminal mode and forward-based 
mode) AN/TPY-2 radars and support the UEWRs and Cobra Dane radar. We 
expect to complete development efforts for the next incremental 
software build (CX3.0), which will expand electronic protection 
functionality and further improve discrimination and debris mitigation 
capabilities to handle more advanced threat set requirements. We will 
also develop common U.S. and FMS software architecture for AN/TPY-2 to 
improve synergy and achieve cost savings for future software builds. In 
fiscal year 2017 we also will deliver the operational Float Antenna 
Equipment Unit (AEU) to improve Warfighter operational/maintenance 
flexibility; continue fleet-wide depot maintenance to retrofit 
Electronics Equipment Units with new signal data processors; and 
retrofit a product redesign for AN/TPY-2 AEU transformers with upgraded 
reliability improvements across the fleet. AN/TPY-2 radars will 
participate in three BMDS flight tests (FTG-11, FTG-15, and FTT-18).
                      developing new capabilities
    MDA is developing technology to address gaps in the BMDS and drive 
the cost of defending the homeland down dramatically. MDA's goal for 
these investments is to deploy a future BMDS architecture more capable 
and cost-effective that instills warfighter confidence in the ability 
of the BMDS to defeat missile attacks. Our vision is to shift the 
calculus of our potential adversaries by introducing directed energy 
into the BMDS architecture. This would revolutionize missile defense by 
dramatically reducing, if not eliminating, the role of very expensive 
interceptors. Our long-term goal is to deploy lasers on high altitude, 
long endurance Unmanned Aerial Vehicle (UAV) platforms to destroy ICBMs 
in the boost phase. To achieve this vision we must demonstrate two key 
elements: laser scaling with high efficiency and excellent beam 
quality, and high altitude, long endurance aircraft to carry the laser 
system.
    We request $71.8 million in Weapons Technology to continue 
development and test of our high-powered directed energy program to 
build the foundation for the next-generation UAV-borne laser system. A 
UAV-borne laser would be capable of acquiring, tracking and eventually 
destroying an enemy missile at a much lower cost than the existing 
BMDS. Within the Directed Energy project, we will collaborate with our 
Air Force and DARPA partners to develop and demonstrate the technology 
necessary to scale laser power to a level required for speed-of-light 
missile defense. In fiscal year 2015, the Massachusetts Institute of 
Technology's Lincoln Laboratory (MIT/LL) Fiber Combining Laser achieved 
44 kilowatts (kW) continuous power with near perfect beam quality, a 
record for fiber combined lasers. In 2017, MIT/LL will demonstrate a 30 
kW, low Size Weight and Power (7 kg/kW) fully packaged fiber laser. 
They also will demonstrate a flight qualified 1 kg/kW fiber amplifier 
traceable to BMDS high energy laser system requirements. The Lawrence 
Livermore National Laboratory (LLNL) achieved similar success with 
their Diode Pumped Alkali Laser (DPAL) system, reaching 14 kW, a record 
for the DPAL system. In fiscal year 2017, LLNL will demonstrate a DPAL 
system at 30 kilowatts average power, more than double the power ever 
achieved by a hybrid laser. The Agency also will make technology 
investments in Divert and Attitude Control Systems for future BMD 
interceptors and kill vehicles.
    In our effort to mature laser technology for missile defense, we 
awarded five contracts with key aerospace partners to produce concepts 
for an airborne low power laser demonstrator. We will use these 
concepts to guide our requirements for the follow-on competitive design 
contracts in fiscal year 2017 under our Technology Maturation 
Initiatives program element. MDA requests $90.3 million in fiscal year 
2017 for Technology Maturation Initiatives to build on the successes in 
weapons technology and discrimination sensor technology. Our vision is 
to add high altitude airborne or space-based electro-optical sensors 
into the BMDS architecture that can acquire, track, and discriminate 
ballistic missile targets.
    One of the goals of the Discrimination Sensor Technology flight 
test development program is to demonstrate that the Aegis Weapon System 
can launch an SM-3, engage and destroy a ballistic missile solely on 
tracks from remote airborne sensors. Test campaigns exercise the test 
analog of the BMDS architecture using operationally proven 
Multispectral Targeting System sensors aboard MQ-9 Reapers as the 
tracking element. During FTX-20, FTM-25, and GM CTV-02+, the Reapers 
received cues, acquired and tracked the target and transmitted these 
tracks to the BMDS C2BMC laboratory at Schriever Air Force Base. C2BMC 
fused the tracks and transmitted them via Link 16 to the Aegis 
Ballistic Missile Test Bed at Space and Naval Warfare Systems Command 
(SPAWAR) in San Diego, CA where the engagements were simulated in real-
time. During GM CTV-02+ the Aegis Weapon System authorized Remote 
Engage Doctrine within 30 seconds of target burnout.
    Over the next 2 years, we will incrementally demonstrate the value 
of increasingly more capable electro-optical/infrared sensors while 
developing tactics and procedures for future operational use. This work 
will culminate in a real time Aegis SM-3 engagement using tracking 
information from airborne sensor data in 2017 and again using higher 
precision, advanced sensor data in 2019. These tests are a crucial step 
in developing persistent sensor technology to defeat the evolving 
ballistic missile threat first from aircraft and eventually from space. 
Finally, MDA will contract with industry to begin the design of an 
airborne laser demonstrator to quantify the target acquisition, 
tracking, and handover performance required for boost phase missile 
defense.
    MDA requests $71.5 million for the MOKV effort. We have made 
considerable progress on the development strategy for the next 
generation exo-atmospheric kill vehicles. In fiscal year 2015, we 
awarded three contracts with industry to define concepts for deploying 
multiple kill vehicles from a single booster. In fiscal year 2016, 
industry delivered their MOKV concepts, and we are evaluating those 
concepts. The next step will be to focus on reducing component 
technical risk in critical areas identified by industry, which is 
necessary to make this revolutionary concept a reality. By 2017 we will 
develop and test MOKV command and control strategies in both digital 
and Hardware-in-the-Loop venues that will prove we can manage the 
engagements of many kill vehicles on many targets from a single 
interceptor. We will also invest in the communication architectures and 
guidance technology that support this game changing approach. 
Ultimately, MOKVs may revolutionize our missile defense architecture.
    MDA requests $23.4 million for Advanced Research and development 
that capitalizes on the creativity and innovation of the Nation's small 
business community and academia to enhance the BMDS. We are also 
fostering research between U.S. and foreign universities of allied 
nations through international cooperative science and technology 
projects. We awarded nine new contracts and exercised continuation 
options on ten additional contracts for innovative new research that 
can transition onto the BMDS.
    MDA also requests $17.9 million for the Advanced Concepts & 
Performance Assessment effort, which models the capability of advanced 
BMD technology to address evolving threats to the warfighter. The 
request will fund the digital simulation and hardware-in-the-loop 
framework and models required for testing of the Airborne Advanced 
Sensor, Kill Vehicle Modular Open Architecture test bed, and maturing 
sensor fusion algorithms.
                       international cooperation
    The fiscal year 2017 budget request includes funding for regional 
missile defense capabilities to protect deployed U.S. forces, reassure 
allies and partners, and build cooperative regional security 
architectures. MDA is engaged with over twenty countries and 
international organizations, such as NATO and the Gulf Cooperation 
Council (GCC). MDA is committed to expanding work with our 
international partners, to include conducting joint analyses to support 
partner missile defense acquisition decisions, cooperative research and 
development projects, deploying BMD assets, Foreign Military Sales 
(FMS), and co-production efforts. Our major international efforts 
reflect the Department's goals in the Asia-Pacific, Middle East, and 
European Areas of Responsibility and will enable implementation of 
EPAA, build partner capacity, and support the strategic shift to Asia-
Pacific.
    The investments of our allies and partners in their own missile 
defense capabilities allow us to build more effective regional security 
architectures that complement U.S. regional missile defense 
capabilities. MDA is currently executing an FMS case with the United 
Arab Emirates for two THAAD batteries and accompanying launchers, 
radars, and interceptors. MDA is actively engaged with several nations, 
particularly those in the Arabian Gulf region, to provide program 
information and cost data that may inform future decisions to procure 
THAAD and other missile defense systems. We are currently conducting a 
Ballistic Missile Early Warning Study for the GCC, analyzing sensor and 
C4I architecture options for defense of the region.
    We continue to have a very strong cooperative missile defense 
partnership with Israel. Over the past year, the Israel Missile Defense 
Organization (IMDO) and MDA successfully completed the third and fourth 
series of tests of the Stunner Interceptor for the David's Sling Weapon 
System (DSWS). IMDO and MDA also achieved the successful first 
engagement of a ballistic missile target with the Arrow-3 interceptor 
in December 2015. This was a major milestone in the development of the 
Arrow Weapon System and provides confidence in future Israeli 
capabilities to defeat developing threats. The Department continues to 
support the critical Iron Dome Program to defeat short-range rockets 
and artillery through co-production efforts.
    We are making significant progress with our Japanese counterparts 
on the SM-3 Block IIA, our largest co-development effort. The 
development work, which remains on track for first delivery in the 2018 
timeframe, will expand extended deterrence to our friends and allies 
and establish an important vehicle for closer defense cooperation ties. 
Once deployed at the Aegis Ashore site in support of EPAA Phase 3 and 
on ships, the SM-3 Block IIA will improve and expand defenses against 
MRBM and IRBM threats.
    We continue to work on meeting our EPAA commitments with our NATO 
Allies. In December 2015, we completed major weapon system construction 
and achieved Technical Capability Declaration of the Aegis Ashore site 
in Romania. We anticipate declaring Initial Operating Capability of 
EPAA Phase 2 as well as beginning work on the Aegis Ashore site in 
Poland in support of EPAA Phase 3 this year. In addition to our 
interoperability activities with NATO, MDA continues to work with our 
European allies collectively as we build upon the synergy and lessons 
learned from ASD-15 as well as bilaterally to further individual 
national progress with missile defenses.
               cybersecurity/supply chain risk management
    We are very cognizant of the growing cyber threat and aggressively 
working to ensure the Nation's missile defenses are resilient and able 
to operate in a highly contested cyber environment. Potential 
adversaries are developing cyber forces as part of their military 
structure and integrating them into their overall strategy. We are 
working very closely with the Armed Services, the Combatant Commands, 
especially Strategic Command's USCYBERCOM, and other agencies in DOD 
and the Federal Government to counter this growing threat.
    We are improving the cyber hygiene of our missile defense 
capabilities by ensuring our cybersecurity infrastructure has the 
latest security upgrades and patches. We are assessing our systems, our 
suppliers, and our overall acquisition processes. We are ensuring 
robust and secure configurations of our critical software and hardware 
to reduce the risk of malicious activities. We also have a rigorous 
cyber and supply chain risk management inspection program to examine 
everything about our systems from the trusted supply chain to the 
fielded capability. This helps us ensure the highest possible levels of 
compliance.
    In support of the DOD Cybersecurity Culture and Compliance 
Initiative signed out by the Secretary of Defense on September 28, 
2015, we are developing a cybersecurity program that focuses on the 
five operational excellence principles: Integrity, Level of Knowledge, 
Procedural Compliance, Formality and Backup, and Questioning Attitude. 
These principles are fundamental to the DOD cyber enterprise.
    We are also instituting the DOD Cybersecurity Discipline 
Implementation Plan to mitigate risks for the information systems we 
own and manage. Our program implements the DOD campaign four lines of 
effort: (1) Strong Authentication, to degrade the adversaries' ability 
to maneuver on DOD information networks; (2) Device Hardening to reduce 
internal and external attack vectors into DOD information networks; (3) 
Reducing the Attack Surface, to lessen external attack vectors into MDA 
information networks; and (4) Alignment to Cybersecurity/Computer 
Network Defense Service Providers, to improve detection of and response 
to adversary activity. These efforts run across all facets of MDA and 
the BMDS mission systems and general services infrastructures. We also 
created five additional Lines of Effort critical to MDA and the BMDS 
including: (1) Safeguarding BMD information in the defense industrial 
base; (2) Positioning, Navigation, and Timing; (3) Transitioning to 
Risk Management Framework; (4) Cybersecurity Testing and (5) 
Cybersecurity Workforce Management (training and certification).
    We are also increasing efforts to establish additional 
cybersecurity awareness training in support of the DOD Cybersecurity 
Culture and Compliance Initiative to improve the individual human 
performance and accountability within the DOD cyber enterprise. This 
applies to our leaders, service providers, cyber warriors, and all of 
our general users. Our efforts align to the DOD Cyber Strategy program 
and are meant to enable and augment the existing mandated cyber 
training efforts. Our training reinforces DOD training and exists to 
shift cybersecurity cultural norms at all levels to increase 
cybersecurity situational awareness across all personnel and inculcate 
a high level of personal responsibility.
    MDA has established an insider threat program in accordance with 
the DOD Directive 205.16, ``The DOD Insider Threat Program.'' We are 
leveraging computer network defense capabilities, in addition to other 
information streams to proactively detect, mitigate and defeat 
potential insider threats. This program also ensures that only trusted 
individuals have access to MDA program information and systems.
    The MDA Computer Emergency Response Team (CERT) continues to 
provide Computer Network Defense (CND) services as an accredited Tier 
II CND service provider to MDA programs of record. The MDA CERT 
executes a battle rhythm that includes daily monitoring and 
collaboration with USCYBERCOM, Joint Forces Headquarters DOD 
Information Networks, and other sources for latest threats to DOD and 
the MDA. As a result, the MDA CERT tracked and managed 109 cyber 
taskings in fiscal year 2015, contributing to the overall cybersecurity 
posture of MDA networks and resources. From August to November 2015, 
the Information Security Oversight Office (ISOO) inspected MDA. The 
ISOO is responsible to the President for policy and oversight of the 
Government-wide security classification and the National Industrial 
Security Program and is a component of the National Archives and 
Records Administration. In addition to security classification and 
Industrial Security, the ISOO reviewed MDA's cybersecurity program. 
ISOO's review confirmed that the MDA operates a robust CNSI program, 
one that enjoys leadership support and utilizes numerous best 
practices. Nearly all of the program elements are very strong, and the 
personnel who implement the program are dedicated and innovative. The 
Agency's Security Classification Guides are developed and updated 
utilizing a sound process and those that ISOO reviewed were current, 
very well prepared, and included all of the elements required by 
Executive Order 13526 and ISOO Directive 1. As with any program, there 
are areas for improvement. MDA is working those areas for improvement 
based on the findings and recommendations.
    Over the last year we also conducted two Enterprise Cyber Range 
Environment (ECRE) experiments with independent, DOT&E red team 
penetration testing on the Joint Information Operations Range (JIOR). 
The purpose of these experiments is to determine the BMDS cyber 
robustness to both external and insider threats. We are planning an 
additional ECRE for the GMD program in May 2016. MDA also completed 85 
cybersecurity inspections worldwide to ensure compliance with DOD and 
MDA cybersecurity standards. We follow up on these inspections to 
ensure remediation of all identified cybersecurity risks.
    We must build resilient cyber defenses that are capable of 
detecting and mitigating threats without impeding operations in order 
to ``fight through'' the cyber threat. MDA collaborates with the 
Director of Operational Test and Evaluation to conduct cyber 
penetration testing on key missile defense capabilities. We then use 
the results of those tests to conduct risk assessments to prioritize 
cybersecurity improvements, develop mitigation strategies, and improve 
cyber training. We are also working to develop better cyber concept of 
operations to ensure every network defender in every location knows how 
to react to cyber challenges.
    MDA is working hard to incorporate cybersecurity requirements early 
into our acquisition lifecycle. We are focused on ensuring we are 
designing and building cybersecurity into missile defenses, rather than 
adding it after the fact. In addition, we are working closely with our 
industry partners in the defense industrial base to ensure they can 
protect both classified and unclassified information they are 
processing on their systems to ensure that it will not be exposed to 
potential adversaries. We know that malicious cyber actors are 
constantly attempting to exfiltrate information from U.S. Industry. We 
will continue to work with the defense industrial base, the FBI, and 
other partners to identify these issues and raise the costs of this 
behavior to those responsible, in coordination with national 
authorities and in accordance with national policy.
    We are working diligently with the COCOMs, Services, and other 
agencies in the Federal Government to ensure the missile defense 
capabilities we field will operate successfully in a highly contested 
cyber environment. We have structured and continue to improve an 
ongoing robust cybersecurity program to protect information about 
current and future missile defense capabilities and ensure a persistent 
state of enterprise cybersecurity readiness. This ensures that the 
Agency remains a strong mission partner, protects and defends MDA 
information systems and networks, and optimizes cybersecurity 
management and processes at a level commensurate with our critical 
national defense mission.
                           program oversight
    There continues to be significant interest in MDA's development and 
deployment of the BMDS and management of the missile defense program. 
MDA is highly visible and one of the most scrutinized agencies within 
the Department of Defense. Each year, throughout the budget hearing 
cycle and congressional mark-ups and floor debates of the defense 
authorization and appropriations bills, there is intense congressional 
oversight of the missile defense program. MDA is also subjected on an 
annual basis to numerous Government Accountability Office audits, the 
support of which has required MDA to expend significant time and 
enormous resources. Dozens of MDA personnel are engaged in supporting 
21 GAO audits and answering more than 750 inquiries. Just within the 
past year MDA has provided nearly 11,000 pages of internal documents 
and prepared responses. MDA has concurred or partially concurred with 
all 21 GAO recommendations in their annual Mandate Report since 2011.
    In addition, the National Defense Authorization Act for fiscal year 
2010 requires that Defense Department financial statements be validated 
as ready for audit no later than September 30, 2017. The Office of the 
Under Secretary of Defense (Comptroller), Financial Improvement and 
Audit Readiness (FIAR) Directorate, initiated the Statement of 
Budgetary Activity (SBA) Examination for the MDA in April 2015 to 
evaluate the Agency's readiness for audit. In December 2015, the audit 
firm conducting the SBA reported that MDA management's assertion is 
fairly stated, which is a successful audit opinion. The Missile Defense 
Agency continues to make significant progress with FIAR initiatives and 
new Department policies. The successful SBA examination confirmed the 
Agency is on track to meet financial statement requirements and full 
auditability by the end of fiscal year 2017.
    MDA also annually delivers the congressionally mandated Baseline 
Acquisition Review (BAR) reports to Congress and GAO. We released the 
latest BAR in early March. MDA and the Department also continue to 
produce and deliver, as required by the annual defense bills, on 
average, over 30 reports to congress on missile defense.
                               conclusion
    Mr. Chairman and Members of the Subcommittee, in closing, I want to 
assure Congress that MDA programs are cost-effective, efficient, and 
managed in accordance with the Missile Defense Executive Board process 
set up by the Department to ensure all missile defense programs and 
operational requirements are validated, adhere to sound acquisition 
practices, and can meet warfighter demand in a cost effective manner. 
Our budget request for fiscal year 2017 will continue to increase the 
capability and capacity of fielded homeland and regional missile 
defense systems and make measured investments in advanced technology to 
reverse the adversary's numerical advantage. I look forward to 
answering the committee's questions. Thank you.

    Senator Cochran. Thank you very much.
    Senator Durbin.
    Senator Durbin. Thank you very much, Admiral.

                   U.S.-ISRAELI COOPERATIVE PROGRAMS

    Let me go to the Israeli cooperative program for a moment. 
Stick with me for a minute and tell me if I am catching these 
numbers correctly. I think the administration promised some 
$600 million between 2010 and 2015, and met that promise in 
their budget request, but Congress added to that number, at 
least last year, perhaps the year before.
    As I understand it, in a budget that is otherwise basically 
flat, we are anticipating a 25 percent increase in the Israeli 
cooperative programs in the next fiscal year.
    Can you give me an idea of the status of the development of 
the program and whether you believe that increase is warranted?
    Admiral Syring. Sir, if I can, let me separate this into 
several parts to thoroughly answer your question.
    The fiscal year 2017 budget request from the Missile 
Defense Agency and the President was roughly $100 million for 
development, and $42 million for Iron Dome procurement, 
additional interceptors that are required.
    There is talk of additional requests from Israel on the 
Hill beyond that amount, which would represent a substantial 
increase to our budget request. I will leave that to you and 
the committee and Congress for adjudication and decision.
    I will testify to the maturity of the program. I am very 
confident in the testing that we did specifically with David's 
Sling last year, and the successes that they had with four 
successful intercepts late last year, that the program is ready 
for production.
    Senator Durbin. Let me ask you, I believe Congress has 
increased the President's request over the last couple years.
    Admiral Syring. Yes, sir. That's correct.
    Senator Durbin. And there is another request.
    Admiral Syring. That's correct.
    Senator Durbin. My basic question to you is, how is it 
being spent the last 2 years? Can you point to it and say it 
was money well-spent because of the threat or because of the 
development that went faster than we expected?
    Admiral Syring. The additional funding that was provided by 
Congress went to, primarily, two or three separate areas. 
First, Iron Dome procurement of additional interceptors that 
were needed after the recent conflict. I would testify 
absolutely money well-spent, in terms of what that system did 
to protect the population.
    Further, we requested and received and we are in the 
process of negotiating how we are going to deliver the funding 
for the David's Sling weapon system production program, for 
additional David's Sling interceptors, production of David's 
Sling interceptors.
    I can attest with the Iron Dome money that we have given 
Israel, that after the signature of the coproduction agreement 
with Israel, the workshare of the United States in fiscal year 
2015 will meet or exceed the 55 percent goal in the agreement. 
So there has been significant U.S. workshare to the funds that 
Congress has supplied for Iron Dome.
    Senator Durbin. Let me ask you about another issue.

                        REDESIGNED KILL VEHICLE

    The redesigned kill vehicle, RKV, I understand that you are 
moving toward something called best-of-breed. From the outside, 
it looks like you're taking three defense contractors that 
might and should be competing against one another and putting 
them in a joint effort.
    We have had some questionable experiences with that, have 
we not, in terms of procurement in the past? Once you have 
eliminated competition, the cost tends to skyrocket. So why 
wouldn't it in this situation?
    Admiral Syring. Two things, Senator, to answer that 
specific concern.
    One, in the past, the kill vehicle in the GMD program was 
manufactured and led by one company with subs underneath it, 
more of a lead system integration role than the government in 
the lead role. I felt strongly that the government needed to 
take charge of this design, given we have one opportunity to 
get it right.
    So I put a team, and we call it best-of-breed, of our best 
three contractors in this area working together on specific 
components and integration efforts under our oversight and 
watch through a technical direction agent, similar to what we 
have in the Aegis program.
    That said, we are going to complete the design with the 
full intent to complete production of the production kill 
vehicles.
    Senator Durbin. So the production itself is going to be 
competitive.
    Admiral Syring. That is correct.
    Senator Durbin. And the actual design part of it, how do 
you keep the costs from going through the roof?
    Admiral Syring. We will manage tight cost budgets 
component-by-component and managed to a should-cost threshold 
every step of the design process. Through every design review, 
you check costs. And if it starts to become unaffordable in one 
particular area, we have the opportunity to revisit and change 
and do some trades between components or contractors at 
government direction.
    And sir, given the state of the program and the need to get 
this kill vehicle quickly to the fleet to replace the less 
reliable kill vehicles, it is absolutely my recommendation and 
my sound backing.
    Senator Durbin. Thank you.
    Senator Cochran. Thank you, Senator Durbin.
    Senator Shelby.

                                FUNDING

    Senator Shelby. Thank you. I want to pick up on the 
requests for funding, which this is a funding committee, as the 
Admiral knows well.
    We have these threats increasing from Iran, North Korea, 
China, Russia, and probably some unknown. Who knows.
    The question that comes to me is, are you more than 
adequately funded? We don't want to shortchange you, because if 
we do, we shortchange national security. The security of this 
Nation is very, very important.
    We would like to hear when you don't want money someday, 
because money by itself is not everything, but money funds the 
forward and future research and development of everything.
    Senator Cochran touched on it, and Senator Durbin got into 
it a little bit. Are we losing something here by lack of 
funding? It is your responsibility, and I know that, to the 
American people, first and foremost, in your job to make sure 
that we are on the cutting edge, that we are doing everything 
we can to defend this Nation against threats and future 
threats.
    In other words, I hope we are not going to lose something 
here.
    Do you see what I am getting at, Admiral?
    Admiral Syring. Sir, I do. Let me take that question.
    We are adequately funded. We are not losing anything today, 
as I sit here, due to funding or funding not being available. 
We are working on the projects. I've testified to this 
committee now, I think this is my fourth year, on a strategy to 
improve our current fielded capability and capacity, 
systematically. And we have taken this in a very rigorous step-
by-step approach, to include GMD reliability.
    This committee and Congress have been very supportive of 
the areas that we did have gaps in the system with, 
reliability, in particular, with the GMD system, a radar that 
we are now building in Alaska, and necessary for the North 
Korean threat.
    We have at efforts that are in the beginning stages in the 
advanced technology efforts. There is one area that I would 
like to focus on in terms of support needed to adequately fund 
technology demonstrations and prototypes of advanced technology 
to augment the kinetic solutions that we are fielding today. 
That is the one area that I see in the future with regards to 
advanced technology that I will need support for coming 
forward.
    The other area is space, and we have talked about space in 
the past, and the need for our country, our department, not 
just the Missile Defense Agency, to come together and field a 
space solution in the future that has missile defense 
requirements in it and missile defense capability in it.
    Senator Shelby. Aren't we just about going to have to do 
that?
    Admiral Syring. Yes, sir.
    Senator Shelby. Because of the potential threats out there 
and the continued advancement and involvement of offensive 
weapons, and so forth?
    Admiral Syring. The long-term solution for persistent 
tracking and discrimination, in my opinion, will be done 
through the space layer.
    Senator Shelby. Tell me what you mean when you say that we 
have adequate money. In other words, this is adequate for today 
and tomorrow? How far down the road are you looking? Or can you 
look too far down the road in this area?
    Admiral Syring. The programs that we have in development 
today that will be fielding between now and 2020 are adequately 
funded. And essentially, over the last 3 years, we have had 
four new start programs that have been funded by Congress, new 
kill vehicle, discrimination efforts, GMD reliability 
improvements, and long-range radar in Alaska. So those are 
adequately and fully funded.
    Senator Shelby. Research and development goes on, I hope 
always. But after you develop, you have to deploy. And that's a 
different stream of money, isn't it?
    Admiral Syring. Sir, there is adequate funding in the 
operation support part of my request to accomplish the fielding 
that is required between now and 2020.
    Senator Shelby. Admiral, do you feel confident that our 
missile defense system--you mentioned adequate right now--is 
sufficient to protect this country?
    Admiral Syring. The missile defense budget is adequately 
funded. The missile defense system will meet today's threat and 
the threat in the future, and I have high confidence in that 
statement.
    Senator Shelby. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The distinguished Senator from Rhode Island, Mr. Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, Admiral, for your leadership.

                             CYBERSECURITY

    You rightfully pointed out in your opening statement, the 
emerging cyberthreat to every system, but particularly to your 
system.
    If you had additional resources, could you tell us in what 
areas of cybersecurity that you could use these resources?
    Admiral Syring. As part of our future budget request, what 
we are doing is assessing where our prime contractors and 
subcontractors are in cyberdefense and resiliency.
    We have done a very good job on our tactical system of 
protecting, monitoring, and testing against potential attacks 
on the core MDA-classified networks and unclassified networks.
    Where my concern resides in the future is vulnerabilities 
of our cleared defense contractors and working hand in glove 
with them to ensure that our future contracts have the 
necessary requirements and protection requirements and 
standards in them, and at the same time, assessing our current 
contracts to make sure that if there are areas that require 
investment by us, to get them up to a standard that we are 
willing to do that.
    Senator Reed. So in effect, the weak link really is some of 
the private contractors, and you are going to work with them 
with their resources and your resources to strengthen their 
protections?
    Admiral Syring. Sir, across the board with cyber, it is a 
24/7 attack, and we have to maintain constant vigilance to what 
we have today and work to improve it.
    Where I see, since we are doing pretty well at that level, 
is the next layer of vulnerability is our cleared defense 
contractors. I would agree with that statement.
    Senator Reed. Thank you, sir.

                          ADVANCED TECHNOLOGY

    You mentioned also that advanced technology is perhaps a 
game-changer, one would hope. A lot of that is your directed 
energy research, et cetera. But can you just describe these 
efforts? And not only will it make us more effective, will it 
help lower costs, too? Is that part of the plan?
    Admiral Syring. The answer to your last question is yes and 
yes. It will make missile defense in a layered system more 
effective and less costly.
    Where we are today, and I have testified to this, as in the 
past, we have had MIT and Livermore labs gainfully engaged in 
reducing the risk with the technology for directed energy, 
specifically solid-state laser technology, and have done some 
great work now that has in large part enabled, in my view, some 
of the contractors that are now leaning in on directed energy 
with the services and expanding that now in our thinking to 
what can be done with the missile defense mission.
    My whole goal with directed energy is to get to a low-power 
laser demonstrator in flight to demonstrate boost phase 
feasibility by 2021.
    Senator Reed. This is not a classified session, but could 
you give an indication of where we are vis-a-vis some potential 
competitors with respect to this technology?
    Admiral Syring. In terms of companies?
    Senator Reed. No, in terms of other nation-states that 
might also be pursuing this work. If you cannot, that's fine.
    Admiral Syring. Sir, I would like to take that for a 
classified answer, if I can.
    Senator Reed. I appreciate that, Admiral.

                                SENSORS

    Sensor capabilities, you have developed them, et cetera. In 
terms of the current anticipated threat to homeland, how would 
you prioritize additional sensor capabilities? Are they 
important to field now or are there other things that you can 
do with existing sensors to protect the homeland?
    Admiral Syring. It is, and I have been clear about this, it 
is absolutely the step that we are now taking with Alaska and 
the step that we need to take in other areas as well to fill 
our sensor network. It is the next step of what I have 
recommended for us to fill in, in the BMDS architecture.
    Senator Reed. But part of this is not just having the 
physical sensors. It is having the ability to discriminate 
better with the sensors. Is that more of a priority to you in 
terms of not a fixed location, but more capability in the 
sensor itself?
    Admiral Syring. Yes, sir. We have fantastic tracking and 
classification capability with the Air Force early warning 
radars that protect us from a trajectory from North Korea and 
from Iran, as you know. But those are not necessarily 
discriminating radars.
    The radar that I am building in Alaska is to that very 
point of providing discrimination capability against a complex 
threat, and I'll just leave it at that, a complex threat, 
meaning other items in the scene with the reentry vehicle to 
pick out the reentry vehicle accurately and every time.
    Senator Reed. Thank you very much, Admiral.
    Senator Cochran. Thank you, Senator.
    The distinguished Senator from Montana, Mr. Daines.

                   SECURITY OF MISSILE DEFENSE SITES

    Senator Daines. Thank you, Mr. Chairman.
    Admiral Syring, thanks for your testimony today and your 
service to our country.
    Coming from Montana, we certainly know the power nuclear 
weapons hold, having one-third of ICBMs for our Nation located 
in Montana. And I am grateful for the protection the Missile 
Defense Agency is able to provide, so thank you.
    It has been made clear to me, this administration does not 
take security of our weapons as serious as they should. In 
fact, back home in Montana, we have Vietnam-era helicopters, 
Hueys, that provide security to our missile silos, and they 
cannot even meet the current minimum security standards.
    Given the lack of attention to security of our most 
powerful weapons, I feel this points to a defense-wide failure 
to take security seriously. In fact, we think about placing 
missile defense systems even on foreign soil. I fear they could 
be even less secure.
    The question is, what steps are you taking to provide more 
secure missile defense systems to the service branches, should 
their sites come under attack?
    Admiral Syring. We work very closely with, for example, up 
in Alaska, with the Army National Guard that operates the site 
in Fort Greely.
    A lot of those systems have been built now 10 years ago, 
but have been continually improved in terms of the security 
capability that we have with integrated electronic detection 
systems and intruder alerts. I go there frequently, and they 
are constantly training against those types of threats.
    It is taken very seriously, and we have been very 
successful so far, specifically up in Alaska, with the security 
environment.

                      EAST COAST SITE/NORTH KOREA

    Senator Daines. There has been a lot of discussion about 
putting a third antimissile battery on the East Coast of the 
United States. From a security standpoint, I do believe this is 
something our Nation needs, given the growing threats abroad. 
But from a financial standpoint, I am also concerned about how 
much this might cost.
    An additional antimissile battery on the East Coast is 
estimated to cost over $3 billion. Do you feel the security 
benefit our Nation would gain is worth that investment?
    Admiral Syring. Sir, we have testified that both capability 
and capacity are important for the GMD system. Currently, we 
will have 44 GBIs by the end of 2017 that completely protect 
the Continental United States, Alaska, and Hawaii against an 
ICBM threat. It is a matter of how far will the threat progress 
in terms of numbers of potential ICBM threats to the United 
States.
    That is why I have taken this in two steps. I am working 
hard with your support to improve the sensor network and 
discrimination capability of the current system, so that it 
does not become overmatched by a complex ICBM threat from 
either North Korea or Iran. In parallel, we are redesigning the 
new kill vehicle to make it more reliable and more producible.
    At some point, when those parts of the kill chain are 
filled in, then a capability discussion on more interceptors 
would be warranted. But given where I am with resources and the 
state of the system, we are focused on the right gaps, 
considering where the threat is today.
    Senator Daines. You mentioned North Korea. Certainly, each 
year, North Korea continues their rhetoric and their threats 
regarding the destruction of the United States.
    Having just claimed to detonate a hydrogen bomb and the 
continued test launches of intercontinental ballistic missiles, 
I am extremely concerned about the threat they pose to the 
homeland. What steps are you taking to increase protection from 
a North Korean missile attack?
    Admiral Syring. Sir, great question.
    Back when North Korea flew the Taepodong-2 in December 
2012, it really provided the impetus for the decision that we 
made in 2013 to undertake all the improvements that we are now 
ahead of the curve on, specifically against that threat.
    I firmly believe that that decision today has now put us 
ahead of where they might be with numbers today and in the 
future, meaning increasing the GBI inventory by 50 percent 
against that very threat.
    With the second ``AN/TPY-2'' radar now in Japan that was 
fielded in 2014, it has provided even more robust defense, 
specifically to Hawaii and the homeland.
    I think we have made all the right steps in anticipation of 
that threat escalating, and it appears we were right.
    Senator Daines. So the Terminal High Altitute Area Defense 
(THAAD) system in South Korea, will that increase our security 
level as well?
    Admiral Syring. If the decision is made, it would increase 
the missile defense posture in South Korea for protection of 
them and our deployed forces. The answer is yes.
    Senator Daines. Thank you.

                          SPACE-BASED SYSTEMS

    Last question, during the 1980s, President Reagan had the 
Strategic Defense Initiative, better known as Star Wars. We 
haven't heard a lot about what actions U.S. is taking in space 
with both missile defense and satellite defense.
    Cutting to the chase here, and the question, I'm running 
out of time, what programs is your budget funding this year to 
build protection, both in space and from space?
    Admiral Syring. Yes, sir. Great question.
    We started this year, and by the end of next year, there 
will be 22 payloads fielded on commercial satellite 
constellation. For classification reasons, I will just leave it 
at that. That will help us experiment and demonstrate what we 
call a space-based kill assessment capability.
    It is a small step, but it is a necessary step to prove 
what function in space can be done persistently and globally. I 
think that will be an important risk reducer as the department 
decides what we are going to do in the future in space for 
missile defense.
    Senator Daines. Thanks, Admiral.
    Admiral Syring. Thank you.
    Senator Cochran. Thank you. The time of the Senator has 
expired.
    The distinguished Senator from Montana, Mr. Tester.

                         NUCLEAR MODERNIZATION

    Senator Tester. Thank you, Mr. Chairman.
    Thank you, Ranking Member.
    And thank you for being here, Admiral, for this hearing. 
Thank you for your service.
    You have testified that your priority is to continue 
delivering greater missile defense capability and capacity to 
the warfighter in support of the combatant commander 
priorities. As you know, Secretary James has frequently and 
consistently stated that there is no mission more critical than 
maintaining our Nation's nuclear capacity, particularly at a 
time when our Nation confronts a number of strategic threats 
that have already been talked about here today.
    Can you speak of the importance of modernizing our nuclear 
force, along with developing the missile defense capabilities?
    Admiral Syring. Sir, let me dodge the first part of that 
question on the importance of nuclear modernization. I assume 
there are others that will answer that.
    But I will talk about the complement of offensive and 
defensive capability. That is certainly on the offensive side. 
But what I am doing with missile defense I think is on the 
level of where we are with nuclear and nuclear command and 
control in terms of the assurance that I must give the American 
people and you that we are protected every day, any time.
    Space is very unforgiving, as you know. We have to be right 
every time.

                            EAST COAST SITE

    Senator Tester. Yes, you do.
    Admiral Syring. I view our mission as equally important, 
and a strong complement to the offensive capability this Nation 
possesses.
    Senator Tester. Okay, so you make a good point. You have to 
be right every time. As you look at this budget, does it allow 
you to be right every time?
    Admiral Syring. Sir, given the number of threats that the 
intelligence community will testify to what the enemy possesses 
today, the answer is yes.
    Senator Tester. Okay, I just want to talk about the East 
Coast defense system for a second. I know you have talked with 
other members of this committee, and there may be others who 
ask about it. And I understand you are opposed to it. I just 
want to get it clear.
    Is the reason you are opposed to it because of the cost or 
because of the lack of the threat?
    Admiral Syring. Two reasons at this time.
    The $3 billion or $4 billion is a strong resource 
requirement in today's reduced budget environment.
    Senator Tester. Big sum of money, yes.
    Admiral Syring. And there are other things, including 
sensors, which we talked about, but more importantly, the 
redesign of the kill vehicle and the new booster that is funded 
in this year's budget needs to be completed and tested before 
we go build another site and put interceptors in the ground.
    If we are going to build a site, I want to put the best and 
most current interceptors in the ground when they are ready.
    Senator Tester. I got you. I appreciate that very, very 
much.
    Look, thank you very much for being here. I appreciate the 
work you do.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The distinguished Senator from Missouri, Mr. Blunt.
    Senator Blunt. Thank you, Chairman.

                   U.S.-ISRAELI COOPERATIVE PROGRAMS

    Admiral, on the question that Senator Durbin started with 
on Israel, this committee has been generally very supportive of 
our efforts with Israel on things like the Iron Dome or David's 
Sling or Arrow. In the unfortunate real-field circumstances 
that we have had to test those, and the Israelis have had to 
test those, they seem to be proving themselves to be the kind 
of investment we would want to be part of to ensure our 
security.
    It is curious to me that the administration wants to reduce 
funding for Israel missile defense this year. Certainly, there 
is nothing in the region that suggests the region is more 
secure or more peaceful than it has been in the past.
    Are you concerned with our failure to have the same 
commitment to this program that we have had in the past?
    Admiral Syring. Sir, I think that the Congress and the 
department in the past have been extremely supportive of 
Israel, not only the request but the additional requests that 
they have asked for.
    For me, it comes down to, how much out of my budget can I 
afford to budget for Israeli development and production? 
Anything above that, I will testify to the stated maturity of 
the program and whether the funds are of good use, and I have 
been clear on that.

                           BUDGET PRIORITIES

    But to me, and we have been consistent budget request after 
budget request, it has been consistently $100 million to $200 
million, out of a precious budget, can I afford to upfront 
budget for their requirements?
    Sir, everything I do is a risk-based analysis on how much 
funding and what is needed and when, and Israel falls into that 
category.
    Senator Blunt. That brings me to another question. I think 
if you look back, and of course you know this, in the original 
Missile Defense Agency charter, a primary purpose to have this 
agency, as opposed to what other agencies would operate, 
maintain, be responsible for our missile defense structure, one 
of the main reasons for this agency was to develop cutting-edge 
missile systems.
    I don't know that we are doing that more than, better than, 
our cooperative effort with Israel right now. When you look at 
the numbers in the budget, we are constantly trending toward 
operations and maintenance and procuring of existing systems, 
instead of looking at cutting-edge developments in missile 
defense.
    Are you concerned as you see the budget switch in that way, 
because I do think that was a principal reason to establish the 
agency? Others could do what is happening in operations and 
maintenance and procurement, but your agency is uniquely 
positioned to be looking at what can come next to make us more 
secure. It seems to me the budget is heading in a very 
predictably different direction now.
    Admiral Syring. Yes, sir. I think there are two parts to 
your question.
    First, on Israel, besides the funding that we provide, and 
Congress provides even above that, we have provided over many, 
many years system engineering and program office support hand-
in-hand with Israel as they have developed and we have 
developed these capabilities that are now being tested. So 
there's a whole part of the agency that works hand-in-glove 
with Israel. I think that has been a great benefit to them and 
us.
    On where we are with sort of the next cutting-edge 
interceptor technology, as you know, we increased the SM-3 1B 
diameter from 13 inches to 21 inches to give it further reach 
and further capability. We also improved the seeker. This has 
been done cooperatively with Japan.
    That is a very cutting-edge, state-of-the-art, hit-to-kill 
interceptor that is designed for the advanced threat and will 
be critical to Poland when I field Poland in the end of 2018.
    I am also looking at advanced concepts in the THAAD 
program, in terms of what is the next missile beyond the 
current THAAD interceptor that we are fielding? Does it need to 
be two pulse? Does it need to have a different seeker? I think 
you will see us come through those trades.
    Specifically, sir, as we become very concerned with a 
hypersonic glide vehicle threat we cannot lose sight of our 
current interceptors or the next interceptors that need to be 
better even than the last.
    Those are two regional examples, and then I have cited 
where we are with the redesigned kill vehicle. But even beyond 
that, sir, in the next year's budget, we contemplate the 
concept of multi-object kill vehicle where we put multiple kill 
vehicles on one booster stack for the GMD program. That is when 
you really start to advance the system, when you can think 
about one or two interceptors at most going into a very complex 
decoy scene.
    There are three areas in specific that we are looking to 
improve the next capability.
    Do we have a clean sheet design for any of this? No. We 
have built our program on the premise of improving and 
continually evolving the current fielded capability.
    It was the Admiral Meyer adage back in the Aegis program: 
build a little, test a little, learn a lot. From a resource 
standpoint of where we are in this Nation and in DOD, I think 
that what we are requesting and what we have been doing with 
relatively little marginal cost to improve the fielded systems 
is the best return on investment for you and the taxpayer.
    Senator Blunt. Well, I hope that is right.
    Senator Cochran. Thank you. The time of the Senator has 
expired.
    Senator Blunt. And my time has expired.
    Senator Cochran. Thank you, Senator.
    The distinguished Senator from Hawaii, Mr. Schatz.

                           DEFENSE OF HAWAII

    Senator Schatz. Thank you very much.
    Admiral, thank you very much for all of your work.
    Can you tell me what you think the threat is to the people 
of Hawaii from North Korea?
    Admiral Syring. The threat is the same threat that faces 
the Continental United States and Alaska, as I sit here today, 
from North Korea, a long-range ICBM threat.
    Senator Schatz. And what is the level of threat right now? 
Can you reassure the people of Hawaii?
    Admiral Syring. The people of Hawaii are protected today 
from the North Korean threat.
    Senator Schatz. The GAO does not share your confidence. Can 
you address the concerns in the February GAO report?
    Admiral Syring. Yes, sir.
    In the report, they did not have any specific 
recommendations. In large part in the past, we have agreed with 
the recommendations. But if I recall correctly, they were in 
three areas, concurrency was one, in terms that we were still 
highly concurrent in our development of capability and testing 
of that capability. So I have testified, sir, here 2 years ago, 
every program has a degree of concurrency. It is a matter of 
how you manage that concurrency in a cost-effective way. You 
cannot heel-to-toe every qualification, development, design, 
and ever come out with anything that would be affordable or 
ahead of the threat.
    So we, I think, have been very clear on not fielding 
capability before it has been tested. And, sir, as you know, 
there is a lot of history on this program and the failures it 
went through in 2010. There was hardware that was procured in 
the past. All of that after the successful flight test has come 
together in a very systematic way.
    The program that I have laid in for the redesigned kill 
vehicle is actually, and I think they noted this in the report, 
on the right path in terms of testing well before it is 
fielded.

                 ADVANCES OF ADVERSARY COUNTERMEASURES

    Senator Schatz. So I worry about the progress our 
adversaries are making with missile technology, particularly 
with countermeasures. As you know, PMRF on Kauai will continue 
to be a world-class test range for Aegis ballistic missiles and 
Aegis Ashore, so that we can continue to improve and test 
missiles to defend against future threats.
    Can you describe the advancements that our adversaries are 
making, especially with countermeasures?
    Admiral Syring. Sir, I will have to take the details of 
that answer in a classified setting, but let me give you an 
unclassified answer right now. They continue to make advances 
in several key areas that concern me.
    Senator Schatz. Is it your view that PMRF has a role in the 
future to play in this space?

              ENERGY REQUIREMENTS OF MISSILE DEFENSE SITES

    Admiral Syring. We are assessing that. We in the department 
have gone through an extensive, and will complete the summer, 
what we call a sensor analysis of the alternatives of what else 
needs to be there, and Hawaii is part of that analysis. I think 
it will be something that we look hard at, in terms of is there 
a use of that site operationally as a sensor node, in 
particular, that can help us against that very complex threat 
that you cited.
    Senator Schatz. My last question is about the grid. A lot 
of these enterprises are obviously electricity-intensive. Most 
of them, it seems to me, are on the commercial grid, to the 
extent they are in CONUS or Hawaii or Alaska. So does your 
appropriations request adequately fund grid stability, energy 
assurance? I know some of that will be the responsibility of 
the various services, but I assume some of this is your side of 
the shop.
    So can you tell me about the resource requirements in terms 
of energy assurance?
    Admiral Syring. Yes, let me take that part for the record, 
and I will get you the complete history.
    [The information follows:]

    When the Missile Defense Agency (MDA) prepares to deploy a 
ballistic missile defense asset, a major factor is the availability and 
reliability of commercial power. MDA works with the host military 
installation and the local utility provider to ensure adequate, 
reliable, and economical commercial power is available for normal day-
to-day operations. For weapon system survivability, the MDA assures 
mission readiness by utilizing protected, backup power separate from 
the commercial power grid. As a specific example, during the design 
phase of the Aegis Ashore Missile Defense Test Complex (AAMDTC), 
located at the Pacific Missile Range Facility (PMRF) on the island of 
Kauai, Hawaii, a commercial power study was performed using Naval 
Facilities Engineering Command and the Military Construction Architect/
Engineer design firm.
    The study evaluated the local power company infrastructure and, 
through computer modeling and load flow analysis, determined the 
optimum and most cost effective way to deliver commercial power to the 
site while maintaining grid stability to both PMRF on-base and 
commercial off-base facilities. Energy assurance for the AAMDTC is 
provided by an adjacent, back-up power plant that consists of diesel 
generators and functions independent of the commercial power grid.

    What I will say is that, for our new development in Alaska, 
for example, that has absolutely been accounted for upfront in 
terms of energy assurance from the grid. And then if the grid 
were to go off, we have significant backup power generation 
capability that will keep that site online tactically.
    Senator Schatz. I'm a little worried that the budget 
request doesn't reflect how quickly escalating the threat to 
energy security is in the context of MDA. And I want to make 
sure that we give you the resources necessary. If the sort of 
tactical approach of our adversaries is going to include some 
attempt to undermine either cyber or through some other means 
to undermine our energy security, then I think we have to 
respond, and maybe a little bit more quickly than usual.
    Admiral Syring. Sir, thank you.
    Senator Schatz. Thank you.
    Senator Cochran. Thank you.
    The Senator from Alaska, Ms. Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I appreciate the last question from my colleague from 
Hawaii, recognizing the energy-security nexus. It is something 
that in Alaska we view ourselves as an island when it comes to 
energy, as you are in Hawaii. So that must be an integral part 
in terms of the overall national security, making sure that we 
don't lapse that, so good things to work on.
    Admiral, thank you for your leadership in so many different 
areas. I just came from the Military Construction 
Appropriations Subcommittee. We just marked up that bill, and 
it is good to have that one first out of the box here.
    But what we did in that Military Construction markup is 
fully appropriate the $155 million the administration requested 
for construction of the long-range discrimination radar there 
at Clear. I'm sure that that part of it pleases you.
    Admiral Syring. Thank you.
    Senator Murkowski. Absolutely.

                    LONG RANGE DISCRIMINATION RADAR

    In your testimony, you note that this subcommittee is going 
to be considering the request of $162 million to continue 
development of the Long Range Discrimination Radar (LRDR). And 
you have outlined before this committee and others why you 
believe that this is a significant national security project, 
but I wonder if you would address yourself to the question of 
whether bringing the LRDR online in the next several years is 
even more critical now than it has been in the past, given the 
threat environment that we are looking at, and then following 
on, how critical it is that we fully fund the development 
funding for LRDR this year, just speaking to the generally.
    Admiral Syring. Yes, ma'am.
    The decision that we made after the last Taepodong-2 flight 
test in the end of 2012, and then revalidated in February, I 
think underscores the importance of not just the GMD system, 
but the long range discrimination radar, in particular, that 
there is a clear intent to continue to pursue ICBM rogue, 
mobile technology by North Korea.
    Our system today is designed to counter that. If he tests 
and then improves capability to make this even more complex in 
the future with decoys and countermeasures, and that is the 
whole plan today, we need radar in Alaska to help defeat that 
threat.
    Senator Murkowski. And we need it sooner than later.
    Admiral Syring. Ma'am, the prediction is that that 
capability will potentially be fielded by 2020. Everything that 
we have done to pace the radar development to field in 2020 is 
against that very contingency.
    Senator Murkowski. So timing is key to the construction, 
the development, of the long range discrimination radar.
    Admiral Syring. Ma'am, it is the key part, along with the 
redesigned kill vehicle, of our strategy of improvement by 
2020, for that very threat that we spoke about.
    Senator Murkowski. I appreciate that.
    Mr. Chairman, I have to note that when we are sitting in 
this committee, my ears perk up every time I hear Alaska. I am 
just reminded of the significant role that our State is playing 
when it comes to our national security.

                      IMPROVEMENTS AT FORT GREELY

    We have the long range discrimination radar coming in at 
Clear. We have the GMD at Fort Greely. We have Cobra Dane out 
in Shemya. We have our spaceport in Kodiak.
    This is not just because I have sharp elbows here, but it 
is because of our strategic geographic location at really the 
center of the globe.
    I want to ask you a quick question here, Admiral, about the 
ground system hardware at Fort Greely. I was looking at your 
testimony here and the statement that you made is, ground 
system hardware is ``1990s technology installed in the early 
2000s,'' and you go on to say the MDA is experiencing parts 
obsolescence challenges and operating systems that are no 
longer supported by original manufacturers.
    With the improvements that you are making at Fort Greely, 
does this address this parts obsolescence and these operating 
system challenges?
    Admiral Syring. Yes, ma'am.
    Funded in the past, funded in this year's budget, and 
fielded in the next 2 to 3 years.
    Senator Murkowski. Good. So we will no longer be seeing 
statements that would suggest that we are not current, that we 
are not up-to-date?
    Admiral Syring. No, ma'am. We have systematically requested 
and approved and started all of the areas that in my view have 
significant gaps that need to be improved, from the initial 
prototypes that were fielded in 2005.
    Senator Murkowski. Great. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator.
    The Senator from Missouri, any questions?
    The Senator from Alabama?
    Senator Shelby. None.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Thank you very much for your participation 
in this hearing and the assistance that you have provided to 
this committee.
    Senators may submit additional written questions to you, 
and we would request you respond to them within a reasonable 
time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Thad Cochran
    Question. Admiral Syring, in addition to land-based ballistic 
missile defense systems, do you believe there is merit in further 
exploring the idea of using a dedicated sea-based BMD solution? While 
some cruisers and destroyers support the BMD mission, those ships are 
multi-mission ships and the committee has heard testimony on the 
concerns of the Navy with meeting the demands of the combatant 
commanders. Would a ship with the ability to support a large radar, a 
large magazine of missiles, and the ability to stay on station for long 
periods make sense instead of pulling cruisers and destroyers away from 
their other duties for the BMD mission?
    Answer. In the past, the Missile Defense Agency (MDA) examined a 
sea-based ballistic missile defense (BMD) option and concluded such a 
capability would require a large number of ships per station and entail 
greater operating costs than a land-based alternative.
    However, MDA believes there is merit to examining the feasibility 
of adding sea-based sensor capability that could potentially increase 
national BMD and the BMD system architecture.
    Question. Does MDA use data from Cobra Judy? Would an additional 
mobile, sea-based platform provide value to the BMDS? Given our 
Nation's missile defense priorities, what type of payload would provide 
the most significant sensor and discrimination capability increase in 
shortest period of time?
    Answer. [DELETED]

                          SUBCOMMITTEE RECESS

    Senator Cochran. The Defense Subcommittee will reconvene on 
Wednesday, April 20, at 10:30 a.m., to receive the testimony on 
the department's innovation and research budget.
    This subcommittee stands in recess.
    [Whereupon, at 11:26 a.m., Wednesday, April 13, the 
subcommittee was recessed, to 10:30 a.m., Wednesday, April 20.]
</pre></body></html>
